Audit
Report
  VALUATION OF INVENTORIES IN THE DEFENSE LOGISTICS AGENCY
    STANDARD AUTOMATED MATERIEL MANAGEMENT SYSTEM


Report No. D-2002-009                         October 22, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

ACC                   Acquisition Cost Code
DLA                   Defense Logistics Agency
DORRA                 DLA Operations Research and Resource Analysis
DSCC                  Defense Supply Center Columbus
DSCP                  Defense Supply Center Philadelphia
DSCR                  Defense Supply Center Richmond
DSS                   Distribution Standard System
ICP                   Inventory Control Point
NIRF                  National Inventory Record File
SAMMS                 Standard Automated Materiel Management System
SPMF                  Standard Pricing Master File
                         Office of the Inspector General, DoD
Report No. D-2002-009                                              October 22, 2001
  (Project No. D2000FJ-0067.006)

          Valuation of Inventories in the Defense Logistics Agency
            Standard Automated Materiel Management System

                                   Executive Summary

Introduction. We performed this audit in response to the Chief Financial Officers Act of
1990, as amended by the Federal Financial Management Act of 1994. Inventory and
inventory-related transactions represent major portions of the total assets, obligations,
revenue, and expenses reported on the DoD financial statements. Underlying the financial
statements are management assertions on the valuation, ownership, existence,
completeness, and presentation of inventories. Assertions regarding inventory valuation
deal with whether inventories had been included in the financial statements at the
appropriate dollar amounts and whether the basis of valuation is appropriate, properly
applied, and consistent with previous periods. Inventory valuation data for many of the
DoD consumable spare parts, medical supplies, and clothing and textile items are
maintained in the Defense Logistics Agency (DLA) Standard Automated Materiel
Management System (SAMMS). At the end of FY 2000, DLA reported inventories of
approximately $8.3 billion in SAMMS.

Objectives. The objective of the audit was to determine whether the values assigned to
inventories (that DLA managed in SAMMS) were accurately computed in accordance with
generally accepted accounting principles and were supported by contract data. We also
evaluated applicable management controls. See Appendix A for a discussion of the scope
and methodology, the management control program, and prior audit coverage.

Results. The values assigned to inventories in SAMMS were not always accurate. In
addition, a significant portion of the inventory value was not supported by contract data.
Using the DLA Inventory Valuation Statistical Sampling Plan to assess the $9.1 billion
inventory value that DLA reported in SAMMS at the end of FY 1999, we estimated that
$2.5 billion was fully supported by obligation history records that could be verified to
original contract files. Another $398 million was inaccurately valued. Additionally,
$476 million was not supported by obligation history records or contract files, and $5.7
billion was supported by obligation history records that could not be verified to original
contract files.

Projecting the net dollar impact of acquisition cost and quantity errors showed that the
$9.1 billion DLA inventory book value was materially misstated. We found no evidence
that the conditions leading to the inaccurate and unsupported acquisition costs improved in
FY 2000. The deficiencies leading to the inaccurate and unsupported acquisition costs
were not corrected and fully disclosed. As a result, the values of the inventory items
maintained in the DLA SAMMS cannot be relied on to support the inventory amount on
future DLA financial statements or to support the prices charged to customers. See the
Finding section for a discussion of the audit results.

Correction of the inaccurate values assigned to the DLA inventory will result in a potential
monetary benefit to DLA customers for on-hand inventories expected to be sold during the
6-year Future Years Defense Program. We estimate that approximately $65.9 million of
funds can be put to better use when the standard (sales) prices are reduced for the affected
items. The full extent of the monetary benefits will be quantifiable after the DLA
inventory control points correct all inaccurate acquisition costs.

Summary of Recommendations. We recommend that the Director, DLA, establish an
oversight process to validate that inaccurate acquisition costs are identified and corrected
at DLA inventory control points. Also, the oversight process should validate that a sound
quality assurance program is implemented and maintained. We recommend that the
Director develop interim procedures to validate cost data for items in the DLA Inventory
Valuation Statistical Sampling Plan. We recommend tracing costs from the logistics
feeder systems to the appropriate procurement records until the DLA inventory control
points complete the required actions to correct inventory valuation data. We recommend
that the Director modify the DLA Inventory Valuation Statistical Sampling Plan to obtain
the appropriate cost data for items transferred among DLA inventory control points. We
recommend that the Director, disclose the value of on-hand inventories where contract
data do not support acquisition costs in the notes to the DLA financial statements. We
also recommend that the Director ensure that the inventory valuation problems identified
by this audit are referred to the DLA Business Systems Modernization Office for
consideration during the development of the new DLA automated system.

Management Comments. The Director, DLA Logistics Operations, concurred or
partially concurred with the finding, recommendations, and potential monetary benefits.
Additionally, the Director agreed to include inventory valuation as a weakness in the
FY 2001 DLA Annual Statement of Assurance. The Director stated that changes to
current methodologies were expected to result from this review as well as recent Office of
the Secretary of Defense and General Accounting Office reviews and business systems
modernization planning. Also, DLA is evaluating inventory valuation in the context of
Chief Financial Officer reporting to determine whether footnote disclosures are required
for unsupported inventories. In addition, the Director requested the details of the audit
calculations to estimate the full extent of potential monetary benefits and to determine
whether the DLA inventory book value was materially misstated. See the Finding section
of the report for a discussion of management comments and the Management Comments
section of the report for complete text of the comment.

Audit Response. The Director's comments were partially responsive. We disagree that
additional analysis is needed to determine whether an estimated $6.2 billion of
unsupported inventory value warrants footnote disclosure. We also request DLA provide
a completion date on the review of the potential monetary benefits. We request that the
Director provide additional comments on the final report by December 21, 2001.



                                             ii
Table of Contents

Executive Summary                                             i


Introduction
     Background                                               1
     Objectives                                               2

Finding
     Accuracy and Support of Inventory Values                 3

Appendixes
     A. Audit Process
         Scope                                               16
         Methodology                                         17
         Statistical Sampling Methodology                    19
         Management Control Program Review                   21
         Prior Coverage                                      22
     B. Additional Information About the DLA Sampling Plan   23
     C. DLA Inventory Valuation Process                      28
     D. Judgmental Sample Results                            32
     E. Report Distribution                                  33

Management Comments
     Defense Logistics Agency                                35
Background
           This report is the final in a series on the dollar value accuracy of inventories
           reported on the financial statements of the Defense Logistics Agency (DLA)
           Working Capital Fund. We previously reported that the DLA Inventory
           Valuation Statistical Sampling Plan (DLA Sampling Plan) did not include
           procedures to validate the inventory valuation data in the logistics feeder
           systems1. We then issued separate reports highlighting inventory valuation
           problems at each of the non-fuel DLA Inventory Control Points (ICP) 2. This
           report focuses on the overall impact of the ICP inventory valuation problems
           and the potential impact on DLA achieving a favorable audit opinion on its
           financial statements.

           DLA provides centralized management of consumable spare parts, subsistence
           items, bulk petroleum products, clothing and textiles and medical supplies
           through its ICPs. The Defense Energy Support Center is the DLA ICP that
           manages bulk petroleum products and is located in Alexandria, Virginia. The
           non-fuel ICPs are located at its Defense Supply Centers in Columbus Ohio
           (DSCC), Philadelphia Pennsylvania (DSCP), and Richmond Virginia (DSCR).
           The ICPs are responsible for maintaining accurate and reliable inventory values
           in accordance with generally accepted accounting principles (See Appendix C
           for details on inventory valuation policy). Inventory valuation data for
           hardware, medical, and clothing and textile items are maintained in the DLA
           Standard Automated Materiel Management System (SAMMS). At the end of
           FY 2000, DLA reported inventories of approximately $8.3 billion in SAMMS.

           DLA inventories are stored at its distribution depots located worldwide. The
           depots use the DLA Distribution Standard System (DSS) to maintain on-hand
           inventory record balances which are provided to SAMMS and valued for
           financial reporting purposes. In FY 1999, DLA developed a sampling plan to
           measure the dollar value accuracy of its inventories (see Appendix B for details
           on the DLA Sampling Plan). As part of its sampling plan, DLA selected a
           statistical sample of 3,153 items to assess the accuracy of the $9.1 billion DSS
           inventory value at 18 distribution depots. The sample universe consisted of only
           DLA-managed items whose inventory values were maintained in SAMMS.




1
    Inspector General, DoD, Report No. D-2000-138, “Procedures Used to Test the Dollar Accuracy of the
    Defense Logistics Agency Inventory,” June 1, 2000.
2
    Inspector General, DoD, Report No. D-2001-146, “Inventory Valuation at the Defense Supply Center
    Philadelphia,” June 21, 2001, Inspector General, DoD, Report No. D-2001-079, “Inventory Valuation
    at the Defense Supply Center Richmond,” March 14, 2001, and Inspector General, DoD, Report No.
    D-2001-078, “Inventory Valuation at the Defense Supply Center Columbus,” March 14, 2001.


                                                    1
Objectives
     The objective of the audit was to determine whether the values assigned to
     inventories (that DLA managed in SAMMS) were accurately computed in
     accordance with generally accepted accounting principles and were supported by
     contract data. We also evaluated applicable management controls. See
     Appendix A for a discussion of the scope and methodology, the management
     control program, and prior audit coverage.




                                        2
           Accuracy and Support of
              Inventory Values
           The values assigned to inventories in the DLA SAMMS were not always
           accurate. In addition, a significant portion of the inventory value was
           not supported by contract data. Using the DLA Inventory Valuation
           Statistical Sampling Plan to assess the $9.1 billion inventory value that
           DLA maintained in SAMMS at the end of FY 1999, we estimated the
           following:

                  •   $2.5 billion was fully supported by obligation history records
                      that could be verified to original contract files,

                  •   $398 million was inaccurately valued,

                  •   $476 million was not supported by obligation history records
                      or contract files, and

                  •   $5.7 billion was supported by obligation history records that
                      could not be verified to original contract files.

           Projecting the net dollar impact of acquisition cost and quantity errors
           showed that the $9.1 billion DLA inventory book value was materially
           misstated. We found no evidence that the conditions leading to the
           inaccurate and unsupported acquisition costs improved in FY 2000. The
           inaccurate and unsupported inventory values existed because DLA had
           not established adequate procedures to ensure that its ICPs properly
           valued inventory items based on latest representative purchase price
           information. Additionally, DLA did not verify that its ICPs maintained
           accurate values through quality assurance programs. Further,
           procedures were not in place to retain supporting contract history data or
           disclose unsupported inventory values. As a result, the values of the
           inventory items maintained in the DLA SAMMS cannot be relied on to
           support the inventory amount on future DLA financial statements or to
           support the prices charged to customers.



DLA Statistical Sampling Plan
    DLA relies on statistical sampling techniques to measure the accuracy of the
    inventory records for material stored at its distribution depots. In past years,
    DLA developed sampling plans that only measured record accuracy. However,
    the continued emphasis on producing accurate information to support the cost of
    inventories reported on the DoD financial statements caused DLA to devise a
    new statistical sampling plan in FY 1999. The sampling plan focused on the
    dollar accuracy of the depot records for DLA-owned material (see Appendix B
    for additional details about the DLA Sampling Plan).


                                        3
    The FY 1999 DLA Sampling Plan did not include procedures to test the unit
    cost data in the logistics feeder systems because DLA assumed that all data in
    the logistics feeder systems were correct. Therefore, the results of the DLA
    Sampling Plan only reflected quantity errors identified during physical
    inventories. We tested the accuracy of the acquisition costs used to value the
    3,153 items that DLA selected as part of the DLA Sampling Plan. We projected
    the values of the items with inaccurate and unsupported acquisition costs using
    the same methodology DLA used to project the value of items with inventory
    quantity errors.



Accuracy of Inventory Values
    Accurate Inventory Values. Of the 3,153 items from the DLA statistical
    sample, 1,012 were accurately valued based on the latest representative
    purchase prices. The items categorized as accurate were valued in accordance
    with generally accepted accounting principles and fully supported by the
    originating contract files. Projections of the inventory value for the 1,012 items
    to the $9.1 billion FY 1999 DLA inventory showed that $2.5 billion was
    accurate and supported.

    Inaccurate Inventory Values. Of the 3,153 items from the DLA statistical
    sample, 468 were not accurately valued based on the latest representative
    purchase prices (See Appendix C for details on inventory valuation policy).
    Projecting the misstated inventory values for the 468 items showed that the
    $9.1 billion FY 1999 DLA inventory was misstated (overstated and understated)
    by $398 million. The net inventory value misstatement resulting from those
    errors was an estimated $60.1 million (See Appendix A for details on the
    statistical sampling results). Those results only reflect the pricing errors. An
    additional $6.2 billion of inventory was not supported by contract data and we
    could not determine its accuracy. As a result, those potential errors could
    further impact the accuracy of the inventory value reported on the financial
    statements in a material manner.

    The inaccurate acquisition costs resulted from incorrect estimations, a FY 1992
    valuation method conversion, pricing system errors, file interface problems, and
    various other causes. We provided details on the causes of the inaccurate
    acquisition costs and listed specific examples in our reports to DSCC, DSCP,
    and DSCR (See Appendix A for the prior audit coverage). In addition, we
    provided numerous recommendations for corrective action. However, we did
    not address the valuation problems relating to items transferred among each
    DLA ICP (Intra-DLA ICP transfers) in our reports because it is a DLA-wide
    issue addressed below.

    Intra-DLA ICP Transfers. Of the 3,153 items, DSS identified the incorrect
    managing DLA ICP for 56 items. This occurred because DSS was not updated
    when item management responsibility had transferred to another DLA ICP. Of
    those 56 items, 15 had inaccurate acquisition costs as a result of problems
    associated with the transfer of item management responsibility among each DLA
                                        4
ICP. As part of the 1995 Defense Base Realignment and Closure decision,
DLA realigned more than 600,000 items among each ICP. DLA Manual
4140.2, volume II, part 1, “Defense Logistics Agency Supply Operations
Manual,” July 1, 1999, provides the policy for pricing items acquired during the
logistics reassignment process. Specifically, the policy requires the gaining ICP
to use contract history data that the losing ICP provided during the logistics
reassignment process. The contract history data are required to be used to price
all transferred inventory until additional procurement action takes place at the
gaining ICP.

The DLA Sampling Plan included procedures to obtain the value for inventory
from the managing DLA ICP because DSS only contained standard (selling)
prices. However, the procedures did not include provisions for items
transferred among DLA ICPs. DSS identified the “old” managing ICP for
some of those items.

To illustrate, a hydraulic brake master cylinder (national stock number
1630-00-690-6097) was included in the physical inventory sample at the Defense
Depot, Susquehanna, Pennsylvania. In August 1999, DSS identified DSCC as
the managing DLA ICP. We visited DSCC to obtain the cost of the item and
found that management of the item transferred to DSCR on November 1, 1998.
The transfer was identified in SAMMS by a Key Code of “DZ” which indicated
a logistical loss. The gaining ICP was identified by a Routing Identifier Code of
“S9G,” which identified DSCR. Although the DSCC SAMMS showed zero on-
hand assets, it still contained an acquisition cost of $1,705 based on the last
DSCC contract for the item which was awarded prior to the management
transfer to DSCR. The DSCC contract cost was used to value the on-hand
inventory in the DLA Sampling Plan. However, the most recent acquisition
cost for this item was $1,088, which was reflected in the DSCR SAMMS. By
using the acquisition cost from the “old” managing ICP, DLA overstated the
acquisition cost of the item by $617. The inventory value of the eight cylinders
was overstated by $4,936.

When DLA obtains acquisition cost data from the SAMMS for its sampling
plan, it should also obtain the key code and gaining routing identifier code
fields. Obtaining those codes will identify items transferred among each DLA
ICP and ensure that the appropriate cost data are used to value all on-hand
inventory.

A deficiency in SAMMS also resulted in additional acquisition cost errors for
items logistically transferred among DLA ICPs. To illustrate, a valve assembly
(national stock number 1660-00-731-5482) was included in the physical
inventory sample at the Defense Depot, Susquehanna, Pennsylvania. In August
1999, DSS identified DSCC as the managing DLA ICP. We visited DSCC to
obtain the cost of the item and found that management of the item transferred to
DSCR on November 1, 1998. Although the DSCC SAMMS showed zero on-
hand assets, it contained an acquisition cost of $897. The cost resulted from a
DSCC contract that was awarded one day after management responsibility for
the item transferred to DSCR. The newly awarded contract price was never
transferred to DSCR. DSCR was valuing 24 on-hand valve assemblies that had
been transferred from DSCC at $1,283, which was based on the second most


                                    5
    recent DSCC contract. The acquisition cost was overstated by $386 and the
    total inventory value for the 24 valve assemblies was overstated by $9,264.

    We discussed the system deficiency with a SAMMS computer specialist at the
    DLA Systems Integration Office. The computer specialist informed us that the
    SAMMS process for items transferred among DLA ICPs did not allow for the
    acquisition costs for open contracts to be transferred from the losing ICP to the
    gaining ICP. A non-retroactive systems change was implemented in July 2000
    to correct the problem. However, DLA realigned approximately 638,000 items
    among its ICPs from February 1996 to September 1999. DLA should verify
    that each ICP identify and correct all acquisition costs for items logistically
    gained from another DLA ICP that were not based on the most recent contract
    unit cost.



Support for Inventory Values
    Of the 3,153 items from the DLA statistical sample, obligation history records
    were not available to support the values for 252 items. In addition, the values
    for 1,421 items were supported by obligation history records that could not be
    verified to originating contract files. Projecting the total inventory value for
    those items to the DLA Sampling Plan showed that inventories valued at
    $476 million would exist in the universe of DLA items that were not supported
    by obligation history data. Another $5.7 billion of inventories were supported
    by obligation history records that likely could not be verified to originating
    contract files (see Appendix A for details on the statistical sampling results).

    Lack of Supporting Obligation History Records. Sample estimates indicated
    that inventories valued at $476 million were not supported by obligation history
    records. Those inventories were not supported by the SAMMS contract history
    files or the Haystack procurement history database (See Appendix C for details
    on the DLA inventory valuation process). The obligation history records were
    not available because they were not obtained during the logistics reassignment
    process or were purged from the contract history files. Without supporting
    obligation history records, we were unable to determine the accuracy of the
    assigned acquisition costs. We provided details on the causes of the
    unsupported acquisition costs and listed specific examples in our reports to
    DSCC, DSCP, and DSCR (See Appendix A for prior audit coverage). In
    addition, we provided recommendations for corrective action.

    Lack of Supporting Contract Files. Sample estimates indicated that
    $5.7 billion of inventories were valued using acquisition costs that were
    supported by obligation history records that could not be verified to originating
    contract files (See Appendix C for details on the DLA inventory valuation
    process and the DLA contract file retention criteria). For those items, the
    acquisition cost was supported by obligation history records in the purchase
    trailer of the Pricing System or other obligation history databases. However,
    the originating contract files were not available to support the limited
    information provided on the obligation history record. The supporting contract
                                        6
     files were not available because they were not obtained during the logistics
     reassignment process, were destroyed because their age exceeded DLA contract
     file retention requirements, or were lost. We provided details on the causes of
     the unsupported acquisition costs and listed specific examples in our reports to
     DSCC, DSCP, and DSCR (see Appendix A for prior audit coverage). In
     addition, we provided recommendations for corrective action.

     Financial Statement Disclosures. DLA did not disclose the significant amount
     of unsupported inventories in the FY 2000 Consolidated Financial Statements of
     the DLA Working Capital Fund. DLA had not disclosed in the footnotes to its
     financial statements the amount of their inventories that were not supported by
     obligation history records. Also, DLA had not disclosed the amount of their
     inventories that were supported by obligation history records that could not be
     verified to originating contract data.
     The identification of unsupported inventory values for disclosure purposes could
     be performed using automated methods. SAMMS contains data fields such as
     the “date of last procurement” and “type of logistics gain” fields that could be
     used to identify values for items with acquisition costs based on obligation
     history records that were more than 6 years old. Also, SAMMS could be used
     to identify values for items that were provided electronically by the Military
     Departments during the logistics reassignment process. DLA should use
     automated methods to identify the inventory values for items with unsupported
     acquisition costs for financial statement disclosure.



Projection of Valuation and Quantity Variances
     Projecting the net dollar impact of acquisition cost and quantity errors showed
     that the $9.1 billion DLA inventory book value was materially misstated. Initial
     sample estimates showed an $89 million projected net inventory value
     misstatement resulting from quantity errors identified during physical
     inventories. Additional sample estimates showed a $60 million projected net
     inventory value misstatement resulting from the inaccurate acquisition costs.
     The combined projected net inventory value misstatement resulting from
     quantity and acquisition cost errors was $149 million.

     DLA calculated its initial sample estimate based on the quantity errors identified
     during physical inventories. The sample estimate showed that the $9.1 billion
     FY 1999 DLA inventory book value was overstated by $88 million (see DLA
     Estimate line in the chart below). This initial estimate was within the acceptable
     DoD materiality range of book value plus or minus 2.5 percent. In Inspector
     General, DoD, Report No. D-2000-138, “Procedures Used to Test the Dollar
     Accuracy of the Defense Logistics Agency Inventory,” June 1, 2000, we
     adjusted the DLA estimate for the additional quantity errors identified by our
     review and to increase the confidence level from 90 to 95 percent. This slightly
     changed the sample estimate to show that the DLA inventory book value was
     overstated by $89 million and is depicted on the Quantity Adjustments line in



                                         7
       the following chart. However, the adjusted estimate still fell within the DoD
       materiality range.

       A sample estimate incorporating the quantity and acquisition costs errors
       showed that the $9.1 billion DLA inventory book value was overstated by
       $149 million, with an error bound of (plus or minus) $202 million, as shown on
       the Price Adjustment line listed below. We combined the $60 million projected
       net inventory value misstatement (resulting from the pricing errors) with the
       $89 million projected inventory value misstatement (resulting from the quantity
       errors) identified during physical inventories. The lower bound of the adjusted
       estimate falls outside the 2.5 percent materiality range. Those results only
       reflect the quantity and valuation errors. An additional $6.2 billion of inventory
       was not supported by contract data and we could not determine its accuracy. As
       a result, those potential errors could further impact the accuracy of the inventory
       value reported on the financial statements in a material manner.




                                                                          Materialty Range
                                                                          DLA Estimate
                                                                          Qty Adjustments
                                                                          Price Adjustments

                                                     Book Value
 $8,800.00     $8,900.00    $9,000.00        $9,100.00       $9,200.00   $9,300.00    $9,400.00
                                        (numbers in millions)

                  Impact of Pricing Errors on Sample Estimates



Status of Inventory Valuation Issues in FY 2000
       We found no evidence that the conditions leading to the inaccurate and
       unsupported acquisition costs improved in FY 2000. As part of our overall
       project, we issued three separate site reports in March 2001 to address the
       inventory valuation problems at DSCC, DSCR, and DSCP. In response to our
       recommendations, the Director of DLA Logistics Operations agreed to take
       action to correct inaccurate and unsupported inventory values. However, the
       corrective actions were not scheduled to be completed until September 28, 2001.
       The DLA Systems Integration Office processed programming changes to the
       SAMMS Pricing System to correct some of the deficiencies identified by our
       audit. However, none of the programming changes were retroactive.

       Quality Assurance Program for Inventory Prices. The inaccurate acquisition
       costs identified by this audit had not been previously detected because the DLA
       ICPs had not established quality assurance programs to validate the accuracy of

                                                8
    inventory prices. Efforts were focused on validating the accuracy of prices
    recommended by the SAMMS Pricing System for fast-moving (active) items
    before their release because of limited resources. For example, at DSCC there
    were two pricing analysts who were responsible for maintaining the accuracy of
    prices for more than 2 million items. However, many of the items that we
    found with inaccurate acquisition costs had little sales and procurement activity
    (were inactive) and were not reviewed. Some of the inaccurate acquisition costs
    that we identified had resided in SAMMS since FY 1992. For DLA to ensure
    continued accuracy of all of its prices, a sound quality assurance program for
    the inventory prices must be established and maintained at each ICP. As part of
    this program, each ICP should perform scheduled reviews on inactive items as
    well as test the accuracy of prices for active items.

    In response to our reports on inventory valuation problems at DSCC, DSCP and
    DSCR, the Director of DLA Logistics Operations agreed that the DLA Supply
    Centers would coordinate to develop a sampling program. The sampling
    program would test the accuracy of unit prices with emphasis given to the date
    of last procurement activity. This action is scheduled to be completed in
    September 2001. DLA needs to provide adequate oversight to validate that
    sound quality assurance programs are implemented and maintained at each ICP.

    Analysis of FY 2000 Year-End SAMMS Inventories. We analyzed the
    FY 2000 SAMMS inventories and found significant potential for the inventory
    valuation problems identified during the audit to exist in material amounts.
    There were primarily two reasons for the majority of inaccurate acquisition
    costs, inaccurate estimations and a FY 1992 DLA inventory valuation method
    conversion. Of the 468 inaccurately valued items, 340 items fell into the
    following two categories:

           •   212 items contained acquisition costs that were incorrectly estimated,
               and

           •   128 items contained acquisition costs that were inaccurately
               computed during a FY 1992 valuation method conversion.

    There were 920,408 items with on-hand assets valued at $2.7 billion in the
    FY 2000 DSCC, DSCP, and DSCR national inventory record files (NIRF) that
    were valued using acquisition costs that were estimated and computed during the
    FY 1992 valuation method conversion (see table C-2 for details).



Reliability Of SAMMS Inventory Valuation Data
    We were unable to rely on the inventory valuation data in SAMMS because
    DLA could not provide assurance that the data was complete, accurate, and
    reliable. DLA had not performed the necessary reviews to ensure that SAMMS
    complied with federal financial management system requirements. The Federal
    requirements for compliant financial management and feeder systems are
    described in Public Law 104-208, the “Federal Financial Management


                                        9
          Improvement Act of 1996,” September 30, 1996; Office of Management and
          budget Circular No. A-127, “Financial Management Systems,” July 23, 1993.
          Also, Federal requirements are described in a series of Federal Financial
          Management System Requirements published by the Joint Financial
          Management Improvement Program. Additionally, we previously reported that
          insufficient information was available to adequately describe the current system
          environment. Also, DLA did not adequately reflect the effect that the system
          related control deficiencies had on its ability to produce reliable financial
          statements3.

          DLA has established a business systems modernization working group to replace
          critical DLA financial feeder legacy systems, including SAMMS. The business
          systems modernization initiative will replace the DLA integrated logistics
          financial legacy systems with an Enterprise Resource Planning solution. DLA
          stated that all of its critical financial feeder systems are to undergo a “Y2K-like
          process” to ensure that they meet federal financial management requirements.

          In order for DLA to provide assurance that their automated systems contain
          reliable inventory valuation data, it must show that the inventory systems
          comply with all applicable federal financial management system requirements.
          Specific requirements for the initial valuation and financial categorization of
          inventory are provided in the Joint Financial Management Improvement
          Program’s Federal Financial Management System Requirements Number 7,
          “Inventory System Requirements,” June 1995. A reliable system must provide
          the capability for financial managers to control and account for inventory in
          accordance with generally accepted accounting principles (See Appendix C for
          details on inventory valuation policy). At a minimum, an inventory system must
          fulfill the following requirements.

                   •   Establish methods or formulas to be used in valuing and accounting
                       for inventory based on cost. Costs to be considered for inventory
                       held for sale include all appropriate purchase, transportation, and
                       production costs incurred to bring the items to their current condition
                       and location.

                   •   Establish appropriate cost methods that apply to the various types of
                       inventories held by an agency. Different methods might be needed
                       for inventory held for sale based on the type of item, such as:
                       medical supplies, perishable goods, and hazardous materials.

                   •   Distinguish between the unit cost of an inventory item and its selling
                       price and provide information needed to support reconciliation
                       between the inventory system’s records and other system’s records.

                   •   Maintain the documentation supporting inventory transaction until
                       audited for accuracy and approved by external financial auditors in
                       accordance with applicable regulations and legal requirements.

3
    Inspector General, DoD, Report No. 00-027, “Automated Systems Used to Prepare the Defense
    Logistics Agency Working Capital Fund Financial Statements,” October 28, 1999.

                                                  10
     DLA must provide assurance that its automated systems provide reliable
     inventory valuation data. To provide the assurance, DLA needs to ensure that
     its business systems modernization initiative considers all applicable federal
     financial systems requirements concerning inventory valuation.

     DLA also needs to verify that its business systems modernization office is
     provided all of the inventory valuation deficiencies to ensure that they will not
     occur in the new DLA automated system. Details on the inventory valuation
     deficiencies were provided in our reports for DSCC, DSCP, and DSCR (See
     Appendix A for prior audit coverage). In addition, DLA management expressed
     concerns regarding current system limitations. For example, in response to our
     site report to DSCP, the Director of DLA Logistics Operations cited specific
     concerns regarding the capability of SAMMS to retain acquisition cost data for
     deployable medical systems.
     Deployable medical systems are managed by the DSCP medical commodity and
     are standardized modular field hospitals that can be pre-positioned in the event
     of contingency, national emergency, or war operations. The components are
     purchased under individual national stock numbers and assembled into a
     deployable medical system's national stock number. SAMMS automatically
     priced the deployable medical systems at a standard price and the acquisition
     cost was calculated by removing the surcharge from the current standard price.
     Each year, SAMMS calculated the standard price for the deployable medical
     systems based on the market value for each individual component and the
     acquisition cost was adjusted annually to reflect the change in market value.
     SAMMS did not retain data supporting the original completion of the deployable
     medical systems. According to the Director of DLA Logistics Operations,
     capturing acquisition cost data at the assembly level would require wholesale re-
     programming of SAMMS requirements and financial needs. The DLA business
     systems modernization effort should consider all current systems limitations for
     valuing inventory during the development of the new DLA automated system.



Potential Monetary Benefits
     DLA sample estimates showed that inaccurate acquisition costs caused the
     $9.1 billion inventory value to be misstated (overstated and understated) by
     $398 million. The net dollar value misstatement resulting from those errors was
     an estimated $60.1 million overstatement of inventory values (see Appendix A
     for the statistical sampling results). Correction of the inaccurate inventory
     values assigned to the DLA inventory will result in a potential monetary benefit
     to DLA customers because the cost of inventory serves as a basis for the
     standard (sales) price. The standard (sales) price for DLA-managed items
     consists of the cost of the item plus the applicable cost recovery rate or
     surcharge. The average DLA surcharge rate for FY 1999 was 29 percent. We
     estimate that approximately $77.4 million ($60.1 million plus the $17.3 million
     surcharge) of funds can be put to better use by DLA customers when the
     standard (sales) prices are reduced for the items with overstated prices.
     However, we reported to DSCC and DSCR that reduction of inaccurately


                                        11
    overstated prices resulted in an $11.5 million potential monetary gain to DLA
    customers. Therefore, the remaining estimated potential monetary benefit is
    $65.9 million ($77.4 million projected less the $11.5 million previously
    claimed). The full extent of the monetary benefits will be quantifiable after each
    DLA ICP corrects all inaccurate acquisition costs.



Management Comments on the Finding and Audit Response
    Management Comments. The Director, DLA Logistics Operations, partially
    concurred and agreed to report inventory valuation as a weakness in DLA's
    Annual Statement of Assurance for FY 2001. Additionally, the Director
    concurred in principle in the use of DLA's FY 1999 Inventory Valuation
    Statistical Sampling Plan as a basis for extrapolating audit results. The Director
    has requested the details of the audit calculations in order to estimate the full
    extent of potential monetary benefits and to take a position concerning the audit
    conclusion that the DLA inventory book value was materially misstated. The
    Director indicated that the projected $60.1 million net overstatement of the
    inventory value was well within the DoD materiality range for book value of
    plus or minus 2.5 percent sampling error.

    Audit Response. We consider the Director's comments to the finding to be
    partially responsive. During audit fieldwork, we provided our detailed results
    to each DLA ICP who took action to correct the acquisition costs that were
    determined to be significantly inaccurate. However, we will also provide our
    detailed results to DLA Headquarters for further analysis.

    DLA executed its FY 1999 Inventory Valuation Statistical Sampling Plan
    without establishing that its inventory values were accurate and reliable.
    However, the DLA Sampling Plan only considered inventory quantity errors.
    Based on quantity errors alone, DLA projected that the $9.1 billion inventory
    value was accurately stated within the DoD materiality range of plus or minus
    2.5 percent. The projected $60.1 net inventory value overstatement alone did
    not cause the $9.1 billion inventory book value to be materially misstated.
    When combined with the quantity errors resulting from physical inventories, the
    inventory valuation errors caused the $9.1 billion inventory book value to be
    materially misstated. A statistical sampling plan designed for assessing the
    accuracy of financial statement inventory must consist of values and on-hand
    quantities that are accurate and reliable. The DLA sampling results do not
    include the inaccurate valuation of its inventory. Additionally, a projected
    $6.2 billion of the $9.1 billion inventory value could not be verified to source
    documentation. This significantly impacts DLA's ability to attain an unqualified
    audit opinion on its financial statements.




                                        12
Recommendations, Management Comments and Audit
  Response
    We recommend that the Director, Defense Logistics Agency:

    1. Establish an oversight process to validate that Defense Logistics Agency
    inventory control points identify and correct inaccurate acquisition costs
    residing in the national inventory record file including items transferred
    among Defense Logistics Agency inventory control points. Also, the
    oversight process should ensure that a sound quality assurance program is
    implemented and maintained.

    Management Comments. DLA partially concurred and stated that changes to
    their current methodologies are expected to result from this review as well as
    recent Office of the Secretary of Defense and General Accounting Office
    reviews and business systems modernization planning by DLA and the Services.
    DLA indicated that action was ongoing and expected to be completed by
    March 31, 2002.

    Audit Response. Although DLA partially concurred, the proposed actions
    satisfy the intent of the recommendation.

    2. Develop interim procedures to validate cost data for items in the Defense
    Logistics Agency Inventory Valuation Sampling Plan by tracing costs from
    the logistics feeder systems to the appropriate procurement records. The
    interim procedures should continue until the Defense Logistics Agency
    inventory control points complete the required actions to correct inventory
    valuation data.

    Management Comments. DLA partially concurred and stated that they
    identified and corrected several deficiencies in their pricing system. Also, DLA
    has locally-initiated efforts underway to correct individual pricing errors
    identified. DLA stated that the corrective actions resulting from the audits are
    paying dividends in improving reliability and inventory accuracy. Additionally,
    DLA stated it has initiated a pricing validation review of the 3,723 items
    reviewed by the audit as well as 150,000 items selected for base-lining inventory
    valuation upon forthcoming conversion to use of the business systems
    modernization product. DLA indicated that manual corrective efforts of
    discrepancies would be necessary by each ICP, which are constrained by
    existing local standard pricing specialist resources. DLA indicated that action
    was ongoing and expected to be completed by March 31, 2002.

    Audit Response. We consider the comments to be responsive and request that
    DLA provide the results of its pricing validation review upon completion.

    3. Modify the Defense Logistics Agency Inventory Valuation Statistical
    Sampling Plan to obtain the appropriate cost data for items transferred
    among Defense Logistics Agency inventory control points.



                                       13
Management Comments. DLA partially concurred and agreed to evaluate the
FY 2001 sample results and determine the need for further refinement. DLA
indicated that action was ongoing and expected to be completed by
March 31, 2002.

Audit Response. Although DLA partially concurred, we consider the
comments to be responsive.

4. Disclose the value of on-hand inventories where contract data do not
support acquisition costs in the inventory note to the Financial Statements.
The disclosure should include the total inventory value for items with
acquisition costs not supported by obligation history records. Additionally,
the disclosure should provide the total inventory value for items with
acquisition costs based on obligation history records provided by the
previous managing inventory control point for logistics gain items. The
disclosure should also provide the inventory value for acquisition costs
based on obligation history records that exceed Defense Logistics Agency
contract file retention requirements.

Management Comments. DLA partially concurred and stated that changes to
their current methodologies are expected to result from this review. Also,
changes are expected to result from recent Office of the Secretary of Defense
and General Accounting Office reviews and business systems modernization
planning by DLA and the Services. Additionally, DLA stated that they are
evaluating inventory valuation in the context of Chief Financial Officer
reporting. DLA will also determine whether any additional footnote disclosures
are required or would be beneficial given the rather substantial personnel and
computer resources required for such footnotes. DLA indicated that action was
ongoing and expected to be completed by March 31, 2002.

Audit Response. We consider the DLA comments to be partially responsive.
DLA indicates that it is evaluating inventory valuation and will determine
whether any additional footnote disclosures would be beneficial. A statistical
sampling plan designed for assessing the accuracy of financial statement
inventory must consist of both values and on-hand quantities that are accurate
and reliable. Until DLA corrects the inventory valuation deficiencies identified
by this review, it should not present the results of its inventory valuation
statistical sampling plan on the financial statements. DLA must project the
inaccurate and unsupported inventory values or provide adequate disclosures.
We believe that a footnote disclosure is necessary due to the significant amount
of unsupported inventory values. A projected $6.2 billion of the $9.1 billion
inventory value could not be verified to source documentation. This
significantly impacts DLA's ability to attain an unqualified audit opinion on its
financial statements. We request DLA to reconsider its comment on footnote
disclosure.

5. Provide to the Defense Logistics Agency Business Systems Modernization
Office inventory valuation problems identified for correction during the
development of the new automated systems.


                                    14
    Management Comments. DLA concurred and agreed to task each ICP,
    Defense Distribution Center, and DLA Operations Research and Resource
    Analysis group (DORRA) to identify all inventory valuation problems and
    solutions identified as a result of the audit. The tasks should include corrective
    actions and quality assurance procedures. DLA will pass along the requested
    information to the office overseeing their ongoing Business Systems
    Modernization efforts. DLA indicated that action was ongoing and expected to
    be completed by March 31, 2002.



Management Comments on the Potential Monetary Benefits
    Management Comments. DLA partially concurred with the potential monetary
    benefits and concurred in principle that the full extent of the monetary benefits
    will only be quantifiable after each DLA ICP corrects all inaccurate acquisition
    costs. DLA stated that it is pulling all available acquisition cost history in an
    effort to determine any inventory value discrepancies for the 3,153 items
    reported to be the basis for the potential savings calculations. DLA has also
    requested the audit calculations and clarification regarding the reported DLA
    29 percent surcharge rate. DLA noted that their FY 2001 Non-energy rate
    is 24.7 percent and is expected to decline in the future. DLA stated that their
    DORRA group will estimate the extent of any potential monetary benefits that
    would accrue from the portion of the remaining items inventory likely to be
    requisitioned, if repriced as a result of any required price adjustments.

    Audit Response. We consider the comments to be responsive and request that
    DLA provide an estimated completion date. We also request that DLA provide
    the results upon completion.




                                        15
Appendix A. Audit Process

Scope
    We performed this audit as part of the requirements of Public Law 101-576, the
    “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,”
    October 13, 1994. For this part of the audit, we limited the scope of our review
    to verifying the accuracy of inventory valuation information in the DLA
    SAMMS.

    Work Performed. We performed the audit at DLA headquarters, DSCC,
    DSCP, DSCR, and the DLA Systems Integration Office. We analyzed the
    acquisition costs for 3,723 items maintained in the DLA SAMMS to determine
    whether the acquisition costs were calculated in accordance with Federal
    accounting policy. Our analysis included verifying the acquisition costs to the
    originating detailed transaction data (the contract). As part of our audit, we
    reviewed numerous inventory-related documents, to include the following:

        •   Generally Accepted Accounting Principles, DoD financial management
            regulations, and DLA procedures and policies on valuing and reporting
            inventories,

        •   file interrogation reports for each applicable item from the SAMMS
            Standard Pricing Master File (SPMF), National Inventory Record File
            (NIRF), logistics reassignment data file, and the contracting technical
            data file contract history buy data listing,

        •   DLA Systems Integration Office documents describing the SAMMS
            Pricing System,

        •   procurement history reports from the Information Handling Service’s
            Haystack Windows Online Service for each applicable item,

        •   DD Form 1155, “Order for Supplies or Services,” and related
            contracting documents supporting obligation records used in calculating
            the acquisition cost for each applicable item, and

        •   SAMMS transaction history file reports (for the maximum 24-month
            period) for items that were found to be inaccurately priced.

    We verified the acquisition cost for each item by obtaining contract data at the
    managing ICP because the acquisition cost in DLA is updated when a contract is
    awarded and not upon the receipt of goods.

    Limitations to Audit Scope. Our audit work was limited to determining
    whether the acquisition costs used to value DLA SAMMS inventory were based

                                       16
    on generally accepted accounting principles and supported by contract data. We
    did not assess the reasonableness of the price paid for the items or the
    reasonableness of the DLA surcharge rates.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Financial Management and Inventory Management high-risk areas.



Methodology
    We reviewed generally accepted accounting principles and DoD and DLA
    policies and procedures for valuing inventories. We also interviewed various
    DLA personnel involved in the inventory valuation process, including
    procurement specialists and pricing analysts. In addition, we interviewed
    computer specialists at the DLA Systems Integration Office who were
    responsible for supporting the SAMMS Pricing System.

    We performed a review of the acquisition costs used to value 3,723 DLA-
    managed items on the SAMMS NIRF, which serves as the source file for the
    on-hand inventory value on the DSCC, DSCP, and DSCR Stock Fund trial
    balances. We reviewed the SAMMS SPMF for each item to determine the
    methodology used to calculate the acquisition cost. We also reviewed the
    purchase trailer data section of the SAMMS Pricing System to determine
    whether obligation history records supported the acquisition cost. In addition,
    we reviewed procurement history reports from the Information Handling
    Service’s Haystack Windows Online Service (the Haystack) for each item to
    determine whether obligation history records supported the acquisition cost.
    The Haystack is a commercial on-line parts research and logistics management
    system. The Haystack procurement history file contains procurement data
    obtained on a quarterly basis from the Military Departments and DLA through
    the Freedom of Information Act. We tested the reliability of the Haystack data
    because it was a non-government source. We found the obligation data from the
    Haystack procurement history database to be reliable. Haystack procurement
    history reports were available for 998 items that were valued with acquisition
    costs that were supported by originating contract files. The pricing information
    from the contract files for 992 items matched the pricing information from the
    Haystack procurement history file.

    We reviewed the SAMMS logistics reassignment data file and the SAMMS
    contracting technical data file for each item. For items with obligation records
    that supported the acquisition cost, we requested the contract folder from the
    appropriate ICP organization. We reviewed the contract folder for each item to
    determine whether the obligation data maintained in the SPMF were complete
    and accurate. We determined whether it reflected the last representative invoice
    price as defined by generally accepted accounting principles. Additionally, we




                                       17
obtained the DLA ICP surcharge rates for FYs 1999 and 2000 in order to
calculate the impact that the inaccurate acquisition costs had on the standard
price.

Universe and Sample. Of the 3,723 items that we reviewed, 3,153 items were
part of a statistical sample. Those items were part of a sampling plan that DLA
executed to assess the accuracy of its FY 1999 financial statement inventory
value (see Appendix B for details about the DLA Sampling Plan). In June 1999,
DLA fielded a sampling plan to test the accuracy of the portion of its inventory
stored at 18 DLA distribution depots operating under DSS. As part of that
effort, DLA used a two-stage, stratified, random sampling procedure to select a
sample of 3,153 records from the DSS operating files at 11 DLA distribution
depots for the period ending June 30, 1999. National stock number by location
(all condition codes) served as the unit of analysis or sample record. Inventory
values for the 3,153 records were determined using the acquisition cost from the
SAMMS operating files at each managing DLA ICP.

In our review of the DLA Sampling Plan, we reported that the plan did not
include procedures to test the accuracy of the unit prices in the SAMMS
operating files at each managing DLA ICP. We attempted to test the accuracy
of the 3,153 records in SAMMS. During our review, we found that for 56 of
the items, management responsibility had transferred to a different DLA ICP
than was identified in the Distribution Depot’s DSS. We performed our review
at the gaining DLA ICP.

In addition to the 3,153 items, we selected a judgmental sample of 570 items
from the SAMMS NIRF, which serves as the source file for the inventory
amounts reported on the financial statements. The results of the judgmental
sample are provided in Appendix D. Those items were selected as part of our
initial survey effort at DSCC and during the audit. As part of their sampling
plan, DLA categorized the items stored at the 13 sites into 7 categories, or strata
(see Appendix B for a listing of the stratification categories that DLA used for
its sampling plan). The stratification levels were based on the item’s acquisition
cost as well as its total extended inventory value. The lowest value strata (strata
2) contained all items with an acquisition cost greater than zero and less than or
equal to $500. In addition, the highest strata (strata 7) contained all items with
an acquisition cost greater than $50,000. Further analysis of the DLA sample
revealed that only a maximum of five records were selected from the high value
strata at each site. Because we wanted to verify full coverage of both the
significantly low and high value items, we requested that the DLA Systems
Integration Office provide us with a file containing all items with an acquisition
cost less than or equal to zero and greater than $50,000. We also requested a
file containing all items without an ACC in the NIRF showing how the
acquisition cost was developed. See Appendix C for a definition of an ACC.
We did not project the results from the 570 items.

Use of Computer-Processed Data. To achieve the audit objective, we relied
on computer-processed data from the DLA SAMMS. We did not test the
general and application controls in SAMMS. Specifically, we analyzed the
acquisition costs and obligation history data in the NIRF and the SPMF.

                                    18
    Of the 3,723 items that we reviewed, we determined that the computer-
    processed acquisition cost data were unreliable for 656 items in the NIRF. We
    were not able to determine the reliability of the computer-processed acquisition
    cost data in the SPMF for 1,997 items because each DLA ICP could not provide
    the obligation history records (361 items) or the originating contract files
    (1,636 items). The computer-processed acquisition cost and supporting
    obligation history data in the SPMF were reliable for the remaining items we
    reviewed because we were able to verify the accuracy of the information to
    source documents. The computer-processed acquisition cost and supporting
    obligation history data in the SPMF were reliable for 1,070 items that we
    reviewed because we were able to verify the accuracy of the information to
    source documents.

    Use of Technical Assistance. The Inspector General, DoD, Quantitative
    Methods Division reviewed the statistical projections that were calculated using
    the DLA Sampling Plan.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from November 1999 through June 2001 in accordance with generally accepted
    government auditing standards except that we were unable to obtain an opinion
    on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



Statistical Sampling Methodology
    Sampling Design. We relied on the FY 1999 DLA Sampling Plan for this audit
    (see Appendix B for details on the design of the DLA Sampling Plan). The
    DLA Sampling Plan projected the dollar value impact of inventory quantity
    errors that existed between the DLA DSS record balance and the actual quantity
    observed during physical inventory. The dollar value impact for an item was
    determined by multiplying the inventory quantity variance by the item’s
    acquisition cost, which was maintained in SAMMS at the managing DLA ICP.

    For purposes of our review, we determined whether the SAMMS acquisition
    costs used to value the items selected as part of the DLA Sampling Plan were
    accurately computed. We also determined whether the acquisition costs were
    based on the latest representative purchase price and were supported by the
    originating contract file. For those items where the acquisition cost was
    determined to be inaccurate, we computed the variance between the DLA
    acquisition cost and the latest representative purchase cost. We then multiplied
    the acquisition cost variance by the inventory balance determined during
    physical inventory. The result was the dollar value error for a sampled item.




                                       19
For the acquisition costs that were not supported by obligation history records,
we multiplied the unsupported acquisition cost by the inventory balance
determined during physical inventory. The result was the extended dollar value
not supported by obligation history records. For the acquisition costs that were
supported by automated obligation history records that could not be supported
by originating contract files, we multiplied the unsupported acquisition cost by
the inventory balance determined during physical inventory. The result was the
extended dollar value not supported by originating contract files.

Sample Results. Using the FY 1999 DLA Sampling Plan, we derived statistical
estimates of record and dollar value misstatements from our sample data. As
detailed in the following table, we are 95 percent confident that the total net
dollar misstatement of the inventory records reviewed in our sampling frame is
from $110.0 million understated to $230.2 million overstated. The
$60.1 million point estimate of the net inventory value misstatement indicates
that the $9.1 billion DLA inventory book value, or inventory cost data, was
overstated. The $60.1 million serves as a basis for our potential monetary
benefit calculation. The standard (sales) price for DLA-managed items consists
of the cost of the item plus the applicable cost recovery rate or surcharge. The
average DLA surcharge rate for FY 1999 was 29 percent. Therefore, we
estimated that approximately $77.4 million ($60.1 million plus the $17.3 million
surcharge) of funds could be put to better use by DLA customers when the
standard (sales) prices were reduced for the items with overstated prices.

Additionally, we are 95 percent confident that the total gross dollar misstatement
of the inventory records reviewed in our sampling frame is from $243.0 million
to $552.1 million. We are 95 percent confident that the total net dollar
misstatement (resulting from both quantity and price errors) of the inventory
records reviewed in our sampling frame is from $52.9 million understated to
$350.9 million overstated. We are 95 percent confident that the total dollar
value of the inventory records reviewed in our sampling frame (not supported
by obligation history records) is from $213.6 million to $738.6 million. We are
95 percent confident that the total dollar value of the inventory records reviewed
in our sampling frame (supported by obligation history records that could not be
verified to the originating contract files) is from $903.9 million to
$10,550.3 million. Each of the individual estimates is projected at the
95 percent confidence level. However, the cumulative effect of all five
estimates being simultaneously correct is less than 95 percent.




                                    20
                                              Statistical Estimates

                                                           95 Percent Confidence Intervals

           Dollar Value (millions)                     Lower              Point
           Upper
                                                       Bound            Estimate             Bound

           Inaccurate Acquisition Costs

           Total net misstatement4                     ($230.2)            ($ 60.1)          $110.0
           Total gross misstatement                      243.0               397.5            552.1
           Net price and quantity errors                (350.9)             (149.1)            52.9
           Unsupported Acquisition Costs

           No obligation history records                  213.6             476.1            738.6
           No supporting contract files                   903.9           5,727.1         10,550.3



Management Control Program Review
           DoD Directive 5010.38, “Management Control (MC) Program,”
           August 26,1996, and DoD Instruction 5010.40, “Management Control (MC)
           Program Procedures,” August 28, 1996, require DoD organizations to
           implement a comprehensive system of management controls that provides
           reasonable assurance that programs are operating as intended and to evaluate the
           adequacy of the controls.

           Scope of the Review of the Management Control Program. We reviewed the
           FY 2000 Annual Statement of Assurance issued by DLA to determine whether
           the issues addressed in this report had been reported as material management
           control weaknesses.

           Adequacy of Management Controls. We identified material management
           control weaknesses, as defined by DoD Instruction 5010.40, related to the
           valuation of DLA SAMMS inventory. The details of the management control
           weaknesses are provided in detail in the Finding section of this report. All of
           the recommendations in this report, if implemented, will improve the accuracy
           and reliability of DLA SAMMS inventory values. A copy of the report will be
           provided to the senior official responsible for management controls at DLA.




4
    Positive misstatements represent understated values and negative misstatements represent overstated
    values because the misstatements represent a variance from the original inventory book value. For
    example, the negative total net inventory value misstatement point estimate indicates that the DLA
    inventory book value was overstated and the estimated book value was $60.1 million less.



                                                     21
    Adequacy of Management’s Self-Evaluation. The FY 2000 DLA Annual
    Statement of Assurance did not identify any material control weakness related to
    the valuation of SAMMS inventory.



Prior Coverage

Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-146, “Inventory Valuation at the
    Defense Supply Center Philadelphia,” June 21, 2001.

    Inspector General, DoD, Report No. D-2001-079, “Inventory Valuation at the
    Defense Supply Center Richmond,” March 14, 2001.

    Inspector General, DoD, Report No. D-2001-078, “Inventory Valuation at the
    Defense Supply Center Columbus,” March 14, 2001.

    Inspector General, DoD, Report No. D-2000-138, “Procedures Used to Test the
    Dollar Accuracy of the Defense Logistics Agency Inventory,” June 1, 2000.

    Inspector General, DoD, Report No. 00-027, “Automated Systems Used to
    Prepare the Defense Logistics Agency Working Capital Fund Financial
    Statements,” October 28, 1999.




                                       22
Appendix B. Additional Information About the
            DLA Sampling Plan
   This appendix provides additional information about the sampling plan that DLA
   developed in FY 1999 to measure the dollar value accuracy of its inventories. It
   provides a general description of distribution depot operations, explains the
   objectives and scope of the plan, and provides other relevant information about
   the sampling plan.

   DLA Distribution Depot Operations. At the end of FY 1999, DLA operated
   24 distribution depots. DoD organizations buy large amounts of material and
   store it at the distribution depots. The DLA distribution depots comprise the
   largest concentration of DoD material for which a single DoD entity, DLA,
   maintains the accountable records.

   The depots receive newly procured items, make redistributions (move material
   among depots), receive items returned from field organizations. The depots also
   issue material to customers, and provide for the care, preservation, and quality
   control of items in storage. DLA maintains ownership of most consumable
   items, and the Military Departments own most reparable items. The DLA-
   owned material stored at the depots included spare and repair parts and other
   items classified into construction, electronics, industrial, general, clothing and
   textile, and subsistence (food) commodity groups.

   DLA implemented DSS at its distribution depots. DSS is a perpetual inventory
   system that maintains a continuous record about the location, quantity, and
   condition of each item stored. The DSS increases the on-hand inventory
   balances when stock is received and decreases inventory balances when stock is
   issued. The DSS also adjusts balances based on the results of physical inventory
   counts and material redistributions. Information in the DSS records updates
   SAMMS and the Defense Integrated Subsistence Management System (logistics
   feeder systems), which are maintained by each DLA ICP and used to prepare
   the DLA financial statements. DLA relies on statistical sampling techniques to
   measure the accuracy of information in the DSS perpetual inventory records.

   Objectives of the DLA Sampling Plan. As of September 30, 1999, the DLA
   Sampling Plan was designed to measure the dollar value accuracy of the portion
   of DLA-owned inventories stored at the 18 distribution depots that used DSS.
   DLA excluded procedures to validate the unit price data in the logistics feeder
   systems. Therefore, the DLA Sampling Plan only measured the effect that
   quantity discrepancies in the DSS records had on the total dollar value of
   material stored at the 18 depots.

   DLA personnel consulted with auditors and statisticians from the Office of
   Inspector General, DoD, and the General Accounting Office in FY 1999 to
   design its sampling plan. DLA wanted a plan that was statistically valid, cost-
   effective to implement, and would provide enough time to allow auditors to
   observe the inventory counts.




                                       23
DLA determined that to meet those goals, the sampling plan should be executed
over a 3-month period starting from the date that items were categorized and
selected to year-end.

By design, the sample universe excluded all Military Department-owned
material stored at the 24 depots. The sample universe also excluded the DLA-
owned portion of the material stored at 6 depots that were not using DSS. The
plan also intentionally excluded DLA-owned material and fuels stored outside
the depots, in-transit material, and other types of inventories not recorded on the
DSS records. The excluded material represented approximately 30 percent of
total DLA inventories. At year-end, the depot records showed 2.7 million
items, valued at approximately $11.8 billion (standard price), of DLA-owned
material stored at the 18 depots.

Revaluation of the Universe. In designing the sampling plan, DLA attempted
to relate the sample universe to the information used for financial statement
purposes. Although DSS had standard pricing data for material stored at the
depots, the pricing data exceeded the historic cost of the material because it
included a surcharge for cost recovery purposes. The pricing data used to value
the inventory in the financial statements are maintained by each DLA ICP in the
Defense Integrated Subsistence Management System for subsistence items and in
SAMMS (logistics feeder systems) for all other non-fuel items. To properly
value the inventory, DLA obtained pricing data from SAMMS and revalued the
universe. The 2.7 million items were valued at approximately $9.1 billion at
latest acquisition cost. The sampling plan did not include any tests to validate
the accuracy of the information in the logistics feeder systems, and the plan
assumed that the pricing data were accurate.

Sample Criteria. DLA designed the initial sampling plan to achieve a
confidence level of 90 percent and a precision of plus or minus 2.5 percent
based on the criteria established in DoD Regulation 7000.14-R, the "DoD
Financial Management Regulation," December 1994. This means that, at
90 percent confidence level, the sample estimate plus or minus the achieved
precision level must reside within the book value of plus or minus 2.5 percent,
which is the materiality range set by DoD.

Sampling Process. For sampling purposes, DLA considered the 18 depots
included in the sample universe to have 20 separate sites. Although DLA
considered Defense Depot San Joaquin, California, and Defense Depot
Susquehanna, Pennsylvania, as single depots, each had two separate sites.
Defense Depot San Joaquin, California, had sites located in Sharpe and Tracy,
California. Defense Depot Susquehanna, Pennsylvania, had sites located in
Mechanicsburg and New Cumberland, Pennsylvania. All four sites were treated
as separate sites for sampling purposes.

DLA used a two-stage, stratified statistical sample to select its sample from the
June 30, 1999, universe. The first stage was the selection of depots, and the
second stage was the selection of items.


       First Stage. For the first stage of the sample, DLA used probability


                                    24
proportional to size with replacement to select the 20 sites where depot
personnel were to perform the physical counts. In other words, the chance of a
site being selected was in direct proportion to the amount of DLA-owned
material stored at that site as of June 30, 1999. After a site was selected it was
placed back in the pool for possible selection again. Accordingly, the selection
method that DLA used in the first stage allowed for sites with a greater
inventory value to have a greater likelihood of being selected and for any site to
be selected more than once or not at all.

To perform the first stage of the sample, DLA collected information on all
DLA-owned material stored at the 18 depots (20 sites) as of June 30, 1999. The
DLA-owned portion of the material stored at the depots comprised
approximately 65 percent of the items and approximately 13 percent of the total
value of the inventories stored at the 18 depots. The value of the DLA-owned
inventories was based on prices in the DLA logistics feeder systems. The
depots selected in their order of selection are depicted in Table B-1.



                    Table B-1. Selected Depots
   Distribution Depot                                          Order of
                                                               Selection
   Defense Depot Richmond, Virginia                             1 and 5
   Defense Depot Norfolk, Virginia                             2 and 15
   Defense Depot San Joaquin, California-Sharpe                3 and 12
   Defense Depot San Diego, California                       4, 16, and 18
   Defense Depot Warner Robins, Georgia                            6
   Defense Depot Cherry Point, North Carolina                      7
   Defense Depot Susquehanna, Pennsylvania-
   Mechanicsburg                                                   8
   Defense Depot Red River, Texas                                  9
   Defense Depot Susquehanna, Pennsylvania-New
   Cumberland                                                  10, 11, 19
   Defense Depot Barstow, California                               13
   Defense Depot Albany, Georgia                                   14
   Defense Depot Oklahoma City, Oklahoma                           17
   Defense Depot San Joaquin, California-Tracy                     20




                                    25
        Second Stage. In the second stage of the sample, DLA categorized the
items stored at the 13 sites into 7 categories, or strata. The stratification
categories that DLA used are depicted in Table B-2.


           Table B-2. Stratification Categories of Stored Items
Strata       Type                Unit Price              Extended Value
  1       Measurables              ______                    ______


  2       Countables       Greater than or equal to $0    Less than or equal to
                           and less than $500             $2,000
  3       Countables       Greater than or equal to $0    Greater than $2,000
                           and less than $500
  4       Countables       Greater than or equal to $500 Less than or equal to
                           and less than $1,000          $10,000

  5       Countables       Greater than or equal to $500 Greater than $10,000
                           and less than $1,000
  6       Countables       Greater than or equal to             ______
                           $1,000 and less than $50,000
  7       Countables       Greater than or equal to              ______
                           $50,000



The unit of measure for the sampling plan was an item (the net total number of
items at all individual storage locations) at a particular depot regardless of
condition. All DLA-owned items stored at the 13 sites (excluding items
transferred to the Defense Reutilization and Marketing Service) were included in
the sample universe. Based on past experience, DLA determined that the
minimum sample size should be 3,000 items or 150 items per site selected in the
first stage of the sample.

The DLA-owned items stored at the 13 sites were allocated among the stratum
using Neyman’s allocation. Neyman’s Allocation is an efficient sample
apportionment algorithm that allocates a larger portion of the sample to strata
with large variances and a smaller portion to strata with small variances. A
stratum’s sample size at any given site was determined by the size of the stratum
and its estimated variance (error rate). Because DLA had only limited
information from prior samples when it designed the FY 1999 sample, error
rates had to be estimated and averaged. DLA required that at least 5 items be
included from each stratum for each site selected in stage one of the sample.


DLA assigned all items in the June 30, 1999, universe to the appropriate
stratum. To keep the sample statistically valid, DLA had to keep characteristics


                                   26
of the universe that were established as of June 30 constant. Items remained in
their stratum originally assigned regardless of where they would have been
assigned had the universe been stratified again on September 30, 1999. DLA
designed the sampling plan to provide an estimate of dollar accuracy at year-end
balance. Therefore, the plan assumed that the characteristics of each stratum
did not change significantly during the interim period.

Sample Size. To achieve the sampling objectives, the DLA Sampling Plan
required that depot personnel count 3,177 items. The sample size per site
ranged from 153 items to 168 items. Because 24 of the sample items were
selected more than once, the sampling plan required that depot personnel
actually physically count 3,153 individual items. The depots stored 637 of the
3,153 items at multiple warehouse locations (ranging from 2 to 18 locations per
item). Consequently, to validate the sample, depot personnel had to physically
count 4,255 separate warehouse locations at the 13 sample sites selected in the
first stage of the sample. Depot personnel began their counts on
August 2, 1999, and finished them all during September 1999. Because all of
the counts were not done on September 30, the plan assumed that variances
observed before year-end remained valid for up to 2 months. The DLA
Sampling Plan did not include any roll-back procedures to cover the interim
period from the count dates and June 30 (date of universe selection). Also, the
DLA Sampling Plan did not include any roll-forward procedures to cover the
interim period from the universe selection and count dates to year-end.

Summary Process. Results for each of the 3,153 items were established
through physical counts. DLA netted at the item level the observed variances
for items with multiple locations so that each sample item had only one result.
The reported results were that the DSS record was either correct, overstated by
the observed variance, or understated by the observed variance. For projection
purposes, DLA used the observed variances at the dates of the counts and the
characteristics of the universe as of June 30 to estimate dollar accuracy as of
September 30. Consequently, the sampling plan had an assumption that
variances observed up to approximately 2 months before year-end would have
been the same as the variances that would have been observed had all items been
counted on September 30.

Reported Deficiencies. In Inspector General, DoD, Report No. D-2000-138,
“Procedures Used to Test the Dollar Accuracy of the Defense Logistics Agency
Inventory,” June 1, 2000, we reported that the DLA Sampling Plan was missing
some essential procedures to verify that it covered the complete universe of
DLA-owned inventories at the 18 depots. Specifically, the sample universe
included approximately $1.3 billion of Military-Department-owned material
because DLA did not use the ownership purpose codes in SAMMS. Further,
we reported that the DLA Sampling Plan was not fully reliable or efficient
because it was completed too far from year-end, did not document and provide
for oversight of the sample selection process, used less than a 95-percent
confidence level, and ineffectively stratified the universe and estimated errors.
We also reported that the plan also did not test the accuracy of the unit price
data in the logistics feeder systems.




                                   27
Appendix C. DLA Inventory Valuation Process
   Generally Accepted Accounting Principles for Inventory Valuation.
   Generally accepted accounting principles for valuing inventory are provided in
   the Federal Accounting Standards Advisory Board’s Statement of Federal
   Financial Accounting Standards No. 3, “Accounting for Inventory and Related
   Property,” October 27, 1993. Inventories are required to be valued on the
   financial statements at historic cost or latest acquisition cost adjusted to estimate
   historic cost. The cost of an item should include all appropriate purchase,
   transportation, and production costs incurred to bring an item to its current
   condition and location. Any abnormal costs such as excessive handling or
   rework costs are to be charged to operations of the period. Additionally, the
   latest acquisition cost method requires that the last representative purchase price
   be applied to all like items, including those items acquired through donation or
   non-monetary exchange.

   DoD Inventory Valuation Policy. The DoD policy for inventory valuation is
   established in DoD Regulation 7000.14-R, the “DoD Financial Management
   Regulation,” volume 11B, “Reimbursable Operations, Policy, and Procedures
   for the Defense Business Operations Fund,” December 1994. DoD policy
   requires inventories to be reported on the financial statements at their latest
   acquisition cost in accordance with generally accepted accounting principles.
   DoD policy states that for items without a procurement history, an acquisition
   cost can be estimated based upon current manufacturer’s price listings or market
   price quotations.

   DLA Inventory Valuation Policy. The DLA policy for pricing inventory is
   established in DLA Manual 7000.2, volume II, part 1, “Standard Automated
   Materiel Management System (SAMMS) Financial Subsystem Operating
   Procedures,” July 1, 1999. DLA policy requires the price for each national
   stock number to be based on the latest procurement costs. Specifically,
   acquisition costs for stocked items are mechanically calculated by the SAMMS
   Standard Pricing Application (Pricing System). The items are calculated using
   an average of all stock replenishment buys awarded during the past 6 months,
   plus all other stock replenishment buys that occurred within 45 days of the latest
   stock buy. The quantity of the buys used must also be at least equal to
   1 month’s demand based on historical data. All mechanically recommended
   price changes are held in suspense for at least 7 days to enable the Pricing
   Activity to review, revise, or delete as applicable.

   According to DLA policy, the Pricing Activity at each ICP is the only
   organization authorized to initiate a revision to an established price. The policy
   states that each item may be scheduled for review as required to ensure that the
   price is based on the latest procurement cost and provides instructions on
   performing the scheduled reviews. However, the policy does not specifically
   require scheduled pricing reviews and does not provide guidelines on the types
   of items that should be included in the reviews.




                                        28
Each item that is assigned an acquisition cost has a corresponding acquisition
cost date and acquisition cost code (ACC). The acquisition cost date is the
Julian date on which the acquisition cost became effective and should always be
the first of the month. The ACC is a one-position field describing how the
acquisition cost was developed. The ACCs are defined in table C-1.

              Table C-1. Definitions of Acquisition Cost Codes

   ACC Definition

   A       Acquisition cost was computer generated based on obligation
           transactions in the SPMF. The transactions may result from a DLA
           award or from obligation transactions provided by the previous
           inventory manager if the item was a logistics gain.
   C       Acquisition cost was computed during a DLA-wide conversion from
           standard price to latest acquisition cost in July 1992, and no
           procurement action took place since the initial conversion.
   E       Acquisition cost was estimated.
   G       Acquisition cost was based on the standard price provided by the
           previous manager upon transfer of management responsibility to
           DLA.


The SAMMS Pricing System contains a purchase trailer section in its SPMF to
store current and historical procurement (obligation) records used in the
acquisition cost calculation process. The Pricing System uses obligation
transactions received from the SAMMS procurement subsystem to establish and
update a purchase record resulting from DLA procurement. A purchase record
can also be established and updated by obligation transactions received from the
SAMMS distribution subsystem. The record can be established if the
transaction is the result of contract history data that another DoD ICP provided
for an item that a DLA ICP acquired through the logistics reassignment process
(a logistics gain).

Each obligation transaction in the purchase trailer of the SAMMS Pricing
System contains the following data: obligation document number, quantity,
purchase cost per unit, total obligation amount, Government-furnished material
unit cost, funds classification code, award date, and modification date. When
multiple lines for a given national stock number are procured on one contract,
all lines are consolidated. The purchase trailer has the capability to store a
maximum of 25 purchase records, including the latest three direct delivery
purchase records, for each stocked item. The number of obligation trailers
stored on each SPMF record varies according to the age of the trailer and the
type of item. If the item is a logistics gain that has not had any activity, the
system should keep trailers that are up to 5 years old. For other items, the
system should keep trailers that are up to 3 years old based on the contract
modification date provided in the obligation transaction.




                                   29
          ICP Inventory Pricing. DLA inventory values are assigned and maintained by
          each ICP. The ICPs use SAMMS to manage all inventories excluding bulk
          petroleum products and subsistence items. SAMMS consists of five operational
          subsystems: technical, requirements, distribution, procurement, and financial.
          Inventory prices are calculated within the SAMMS financial subsystem by the
          Pricing System. The Pricing System computes an acquisition cost for each item
          based on obligation history records stored in the SPMF and provides the
          acquisition cost to inventory files in the other four subsystems. The acquisition
          cost is used to value on-hand inventories in the financial statements and is
          updated monthly. Additionally, the Pricing System calculates a standard price
          for each item that consists of the item’s acquisition cost plus a cost recovery
          factor or surcharge. The standard price is the sales price charged to customers
          and is updated annually at the beginning of each fiscal year.

          The Pricing Activities at each ICP operated under the Office of the Comptroller
          and consisted of pricing analysts responsible for verifying the accuracy of the
          prices for more than 4 million different items. Each ICP had no local
          procedures concerning the establishment and maintenance of acquisition costs.
          The Pricing Activities relied on the procedures established in DLA Manual
          7000.2 as well as a functional description of the SAMMS Pricing System
          (written by a computer specialist) at the DLA Systems Integration Office, which
          was the DLA organization responsible for maintaining SAMMS.

          DLA Financial Inventory Reporting. Within the SAMMS distribution
          subsystem, the NIRF contains the total on-hand asset balance for each national
          stock number that each ICP managed. In addition, the NIRF contains each
          item’s acquisition cost that should be derived from the SAMMS Pricing System.
          At the end of each reporting period, the total DLA-owned assets are multiplied
          by the acquisition cost to arrive at the extended inventory value for each item.
          The extended inventory value for all DLA-managed items are combined to
          arrive at the total NIRF inventory value (See table C-2 for the FY 2000 year-
          end SAMMS NIRF inventory). The NIRF is the source file for the inventory
          amounts reported on the ICP’s Defense Stock Fund Trial Balance. The Defense
          Finance and Accounting Service relies on the Defense Stock Fund Trial Balance
          to prepare the DLA financial statements. Each ICP is responsible for verifying
          that inventory amounts provided in the NIRF and the Defense Stock Fund Trial
          Balance are complete, accurate, and reliable.

                     Table C-2. September 30, 2000, SAMMS NIRF Inventory
           Acquisition          Items With         Percent of        Total On-Hand      Percent of
           Cost Code          On-Hand Assets       Total Items      Inventory Value     Total Value
           A                      855,083              48.1         $5,552,722,194         66.8
           C                      519,329              29.2            761,526,942          9.2
           E                      401,079              22.6          1,977,974,621         23.8
           Other                    2,299               0.1             24,010,094          0.2
             Total              1,777,7905            100.0         $8,316,233,851        100.0


5
    DLA manages more than 5 million items. However, only 1,777,790 had on-hand assets on September


                                                 30
       DLA Contract File Retention Requirements. The DLA policy for retaining
       contract files is established in DLA Instruction 5015.1, “DLA Records
       Management Procedures and Records Schedule,” March 1, 2000. DLA based
       its policy on the Federal Acquisition Regulation, which defines contracts as
       individual and subcontract case files accumulated from the administration of
       individual contracts consisting of: purchase orders, contracts, comparable
       instruments, and other applicable documentation. According to DLA policy,
       contracts for more than $25,000 are to be retained for 6 years and 3 months
       after final payment. Contracts for $25,000 or less are to be retained for 3 years
       after final payment. The retention criteria are based on the timeframes
       established in the Defense Federal Acquisition Regulation Supplement.

       ICP Contract Retention Procedures. Each DLA ICP did not have local
       procedures specifying the time period for retaining contract files. The ICP
       organizations that we visited to obtain contract files informed us that they relied
       on DLA policy and the Defense Federal Acquisition Regulation Supplement.
       Personnel from the ICP records holding organizations informed us those
       contract files more than 6 years and 3 months old were generally destroyed
       unless specific justification was provided for their retention.




30, 2000. As a result of DoD inventory reduction initiatives, DLA manages many items as non-stocked
where inventories are shipped directly to DoD customers from contractor facilities.



                                               31
Appendix D. Judgmental Sample Results
   We judgmentally sampled 570 items from the FY 1999 SAMMS NIRF at the
   Defense Supply Centers in Columbus, Philadelphia, and Richmond because we
   wanted to provide full coverage of both the significantly low and high value
   items (see Appendix A for details on the sample selection). The judgmental
   sample items were not used for any of the statistical projections provided in this
   report.

   The DLA Systems Integration Office provided us with a file containing all items
   with an acquisition cost less than or equal to zero and greater than $50,000.
   Those sampled items were not used in any projections. Of the 570 judgmentally
   sampled items, 512 were inaccurate or unsupported.

   Of the 512 inaccurate and unsupported items, 188 had acquisition costs that
   were not accurately based on the latest representative purchase prices. Our
   analysis revealed that the high value items were significantly overstated. The
   acquisition costs for 45 items with acquisition costs greater than $50,000 were
   overstated by an average of 23 percent and the average net dollar overstatement
   for those items was approximately $15,000. Those results are based on a
   judgment sample and do not generalize to the universe. In addition, 16 items
   with on-hand inventory were assigned an acquisition cost of zero. Further, 109
   items had acquisition costs that were not supported by obligation history
   records. Also, 215 items had acquisition costs that were supported by
   obligation history records that could not be verified to originating contract files.
   The reasons for the inaccurate and unsupported acquisition costs were generally
   the same as those relating to the items from the statistical sample.




                                        32
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          33
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         34
Defense Logistics Agency Comments




                  35
36
37
38
39
40
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

Paul J. Granetto
Richard Bird
James L. Kornides
Amy J. Frontz
Kevin C. Currier
Jean M. Jackson-Herrin
Barry N. Harle
Anthony C. Hans
Stephen Wynne
